No.

3fn the Supreme Court of the Initeb States
DR. XIULU RUAN,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
CERTIFICATE OF COMPLIANCE
As required by Rule 33.1(h), I, D. Hunter Smith, a

member of the Bar of this Court, hereby certify that
the Petition for a Writ of Certiorari in the abovecaptioned case contains 8,999 words, excluding the
parts of the brief that are exempted by Rule 33.1(d).
This certificate was prepared in reliance on the wordcount function of the word-processing system
(Microsoft Word for Office 365) used to prepare the
document.
I declare under penalty of perjury that the
foregoing is true and correct.

± aZ

D. Hunter Smith
April 5, 2021

